              HEARING BEFORE THE 

        COMMITTEE ON WAYS AND MEANS 

         SUBCOMMITTEE ON OVERSIGHT 

        U.S. HOUSE OF REPRESENTATIVES 


“Administration of the First-Time Homebuyer Credit”




                 October 22, 2009

                 Washington, DC

                   Statement of

         The Honorable J. Russell George 

 Treasury Inspector General for Tax Administration

                           STATEMENT OF 

                THE HONORABLE J. RUSSELL GEORGE 

       TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION 

                              before the
                  COMMITTEE ON WAYS AND MEANS 

                   SUBCOMMITTEE ON OVERSIGHT 

                  U.S. HOUSE OF REPRESENTATIVES 



               “Administration of the First-Time Homebuyer Credit”

                                       October 22, 2009


        Chairman Lewis, Ranking Member Boustany, and Members of the Subcommittee,
I thank you for the opportunity to testify on the Internal Revenue Service’s (IRS)
administration of the First-Time Homebuyer Credit (Credit). My comments will focus on
the Treasury Inspector General for Tax Administration’s (TIGTA) oversight of the IRS’s
efforts to administer the Credit and on recommendations TIGTA has made to improve the
administration of the Credit.

Background on the First-Time Homebuyer Credit

         The American economy is in the midst of recovering from a severe economic
crisis in which millions of Americans have lost their jobs. In light of this economic
predicament, the President signed into law on February 17, 2009, the American Recovery
and Reinvestment Act of 2009 (Recovery Act), a nationwide effort to create jobs and
revitalize the American economy.1 This legislation represents one of the most ambitious
efforts to stimulate the American economy in our Nation’s history. Section 1006 of the
Recovery Act revised and extended the First-Time Homebuyer Credit originally provided
for in the Housing and Economic Recovery Act of 2008 (HERA).2

       HERA established a new tax credit for first-time homebuyers. The tax credit was
intended to address concerns over excess home inventory and falling home prices.3 The
new credit was originally available for a limited time only, applying to taxpayers who
purchased a principal residence after April 8, 2008, and before July 1, 2009.4 HERA
allowed eligible taxpayers to claim a Credit equal to ten percent of the purchase price of

1
  Pub. L. No. 111-5, 123 Stat. 115. 

2
  Pub. L. No. 110-289. 

3
  Congressional Research Service: The First-Time Homebuyer Credit: An Economic Analysis

(2009). 

4
  Only the purchase of a primary residence located in the United States qualifies for the Credit. 

Vacation homes and rental properties are not eligible. Taxpayers who owned a primary 

residence at any time during the three years prior to the date of purchase are not eligible for the 

Credit. For homes that taxpayers construct, the purchase date is the date they first occupy the

home. 



                                                  1

the home, limited to $7,500.5 The Credit was fully refundable, meaning it would be paid
out to eligible taxpayers even if they owed no tax or if the Credit exceeded the tax they
owed. However, the Credit, as expressed in HERA, served as an interest-free loan to be
paid back over a 15-year period beginning two years after the Credit was claimed.

        Section 1006 of the Recovery Act extended the First-Time Homebuyer Credit to
include purchases made on or after January 1, 2009, and before December 1, 2009;
increased the maximum Credit to $8,000; and eliminated the repayment requirement as
long as the taxpayer retains the residence for 36 months. 6 Taxpayers qualifying for the
revised Credit may claim the $8,000 Credit on either their 2008 or 2009 individual
income tax returns.

Benefits and Estimated Costs of the First-Time Homebuyer Credit

       Congress allocated $13.6 billion for the First-Time Homebuyer Credit in HERA.
The Joint Committee on Taxation estimated that $4.3 billion more would be paid to first-
time homebuyers in Fiscal Years 2009 and 2010 as a result of the Recovery Act. As of
October 9, 2009, more than 1.2 million tax returns claiming almost $8.5 billion in First-
Time Homebuyer Credits had been processed by the IRS.7

       The President has called on Federal agencies to ensure that Recovery Act funds
are used for authorized purposes and every step is taken to prevent instances of fraud,
waste, error, and abuse. The IRS has been charged with ensuring that the First-Time
Homebuyer Credit is appropriately claimed and properly administered, and the Recovery
Act mandates TIGTA to oversee the IRS’s Recovery Act efforts.

Purchase Dates and Supporting Documentation for Claiming the First-Time
Homebuyer Credit

        To claim the Credit, eligible taxpayers must complete and file IRS Form 5405,
First-Time Homebuyer Credit.8 The IRS developed this new form for eligible taxpayers
to calculate and claim the Credit. This form requires the taxpayer to provide the amount

5
  The amount of credit is reduced for individuals with modified Adjusted Gross Income (AGI) of
more than $75,000 ($150,000 for joint filers), and is zero for those individuals with modified AGI in
excess of $95,000 ($170,000 for joint filers).
6
  In addition to Section 1006, the Recovery Act also included a provision to create Recovery.gov.
Recovery.gov is a Web site that was created to provide unprecedented transparency about how
Recovery Act funds are being used, and increase accountability to guard against fraud, waste,
and abuse. Timely and accurate reporting by Federal agencies provides both Congress and
taxpayers an ability to track and monitor all Recovery Act funds on Recovery.gov with the level of
transparency and accountability envisioned in the Recovery Act. In compliance with the
Recovery Act’s principles and reporting requirements, TIGTA’s initial audit report of the First-Time
Homebuyer Credit is publicly available at www.Recovery.gov as well as www.titga.gov, TIGTA’s
Internet Web site.
7
  According to Recovery.gov, tax relief accounts for approximately $288 billion of the Recovery
Act provisions, or about one-third of the benefits expected from the Recovery Act. The President
has stated that every taxpayer dollar spent on the economic recovery must be subject to
unprecedented levels of transparency and accountability.
8
  See Appendix I on page 12.


                                                 2

of Credit being claimed, the address of the home qualifying for the Credit, and the date
the home was purchased. The form was updated after the passage of the Recovery Act to
reflect the increased amount of the Credit, as well as to change the allowable period for
purchasing a home.

        In an attempt to ensure the accuracy of claims for the First-Time Homebuyer
Credit, the IRS developed computer programs to reject electronically filed tax returns or
temporarily suspend the processing of paper tax returns with the following conditions:

    •	 Claims in excess of the maximum allowable Credit;9
    •	 Claims in excess of allowable amounts for those taxpayers with an Adjusted
       Gross Income exceeding income limitations;10 or
    •	 Claims without a Form 5405 attached.

         During our review of the 2009 Filing Season,11 we confirmed that IRS
programming was effectively identifying the above conditions.12 However, some key
controls were missing to prevent an individual from erroneously or fraudulently claiming
the Credit and receiving an erroneous refund of up to $8,000. For example, date of
purchase information from electronically filed Forms 5405 was not used to verify
eligibility for the Credit until late in the 2009 Filing Season. Furthermore, the IRS did
not request that taxpayers attach additional documentation to tax returns to verify
eligibility before allowing the Credits. For example, attaching a Form HUD-1, U.S.
Department of Housing and Urban Development Settlement Statement,13 received at
closing, would enable the IRS to verify the purchase of a residence, the date of purchase,
the purchase price, and the location of the residence. Although the submission of
additional documentation would not substantiate the taxpayer as a first-time homebuyer,
it would provide some level of deterrence for ineligible taxpayers.

         In a memorandum that TIGTA issued to the IRS on November 25, 2008, we
recommended the IRS ensure that information on each line of the Form 5405 was
transcribed for paper returns and that the information from the form be used to validate
claims for the First-Time Homebuyer Credit. 14 We also recommended the IRS require
that taxpayers attach documentation to substantiate a home purchase in order to verify
eligibility for the Credit.

       In a response to our memorandum, the IRS disagreed with both of TIGTA’s
recommendations. Because of the extensive programming requirements and the late
passage of HERA, the IRS did not transcribe the information from each line of Form
9
  The maximum allowable credit for claims under HERA is $7,500. The maximum allowable 

credit for claims under the Recovery Act is $8,000. 

10
   See footnote 5 for Adjusted Gross Income limitations. 

11
   A filing season is the period from January 1 through April 15 when most individual income tax 

returns are filed. 

12
   The 2009 Filing Season Was Successful Despite Significant Challenges Presented by the 

Passage of New Tax Legislation (Reference Number 2009-40-142, dated September 21, 2009). 

13
   See Appendix II on page 15. 

14
   See footnote 12. 



                                                3

5405 into its computer system. The IRS responded that other strategies being employed
would mitigate our concerns. The IRS also stated that a requirement to supply
documentation with the tax return would be burdensome for both the taxpayer and
the IRS.

        The IRS considers the requirement to supply documentation burdensome because
if taxpayers do not provide documentation, the IRS must still process the claim for the
Credit. The IRS does not have math error authority to disallow the Credit during
processing.15 The IRS also noted that requiring documentation would preclude many
taxpayers from electronically filing their returns. We disagree with the IRS’s assertion
that requiring documentation would preclude e-filing. Taxpayers claiming the Credit
who wish to e-file their returns would still be able to do so, provided they separately mail
a paper copy of the additional documentation. Furthermore, requiring taxpayers to
provide documentation would discourage abuse of the Credit before it occurs, much in
the same way that requiring documentation to substantiate certain noncash charitable
contributions discourages abuse.

        The law requires that a home be purchased before the Credit may be claimed.
However, we identified more than 19,300 electronically filed 2008 tax returns on which
taxpayers claimed the First-Time Homebuyer Credit for a home which had not yet been
purchased, but allegedly would be in the future. Had the IRS timely implemented our
recommendations to both capture and use the purchase date from the Form 5405, these
claims would not have been paid. The amount of the Credits inappropriately claimed via
e-filing totaled more than $139 million. We have not yet determined the number of paper
returns with similar claims.

         During the 2009 Filing Season, the IRS implemented computer programming to
reject claims electronically filed with a future purchase date. Controls were also
implemented to identify and disallow claims filed on paper tax returns with future
purchase dates. However, at the time we completed our report, the IRS had not decided
whether to go back and review or correct the more than 19,300 electronically filed tax
returns with future purchase dates or try to identify paper returns meeting the same
criteria that may have been processed before controls were put into place. According to
the IRS, the filters and controls they put into place to identify post-refund erroneous
claims should identify all erroneous claims, including those with home purchase dates in
the future.

       The IRS’s plans to address this issue are not adequate. The IRS’s filters will
allow some taxpayers the use of money to which they were not entitled, and may never


15
   Math error authority allows the IRS to assess and send a notice of assessment of additional tax
without using deficiency procedures. The procedure called "notice of deficiency" (deficiency
procedure) provides the taxpayer with a method of appealing tax and/or penalties to the United
States Tax Court prior to their assessment. Math errors include addition and subtraction errors
on the tax return, use of the incorrect tax table, omission of information required on the tax return
to substantiate an entry, and missing or incorrect Taxpayer Identification Numbers for exemptions
and certain Earned Income Tax Credit disallowances.


                                                 4

be entitled. In addition, the criterion used by the IRS will not ensure that a home
purchase was made.

       We recommended that the IRS initiate actions to determine whether those 19,300
taxpayers known to have claimed the Credit for a future home purchase have actually
purchased a home. If not, steps should be taken to recover the erroneous Credits. The
IRS agreed with this recommendation. The IRS has identified the issue of taxpayers
claiming the Credit for future home purchases as an important element of the overall
examination and compliance plan. The IRS agreed to flag these tax returns for necessary
follow-up with the taxpayers involved.

       Although the IRS does not have authority to reject claims for the Credit made by
taxpayers who do not provide documentation, it does have the authority to audit those
claims. The fact that a taxpayer could not, or would not, provide the requested
documentation, such as a HUD-1 form, would be a strong indicator that the claim for the
Credit was highly questionable and may warrant a pre-refund audit.

        The IRS also contends that our conclusion that it improperly paid out
$139 million to taxpayers claiming the Credit for future purchases is premature because
the taxpayers may ultimately purchase a home. The IRS’s reasoning on this issue is not
correct according to law. At the time the IRS paid the Credit to these taxpayers, the
taxpayers did not qualify for the Credit. As noted earlier, the law does not provide for
prepayment of the Credit, and by making these payments the IRS did not properly
administer the tax law, regardless of whether or not the taxpayers will subsequently
purchase a home.

        We also recommended that the IRS perform a review to determine the extent to
which these improper claims occurred on paper-filed returns. If warranted, the IRS
should identify all paper-filed returns claiming First-Time Homebuyer Credits for future
purchases and ensure the purchases have taken place or the Credits are recovered. The
IRS agreed with this recommendation and stated it would develop a plan to determine
and assess the compliance risk associated with paper-filed returns claiming the Credit for
future purchases. According to the IRS, the compliance program has already commenced
and will extend into calendar year 2010.

Indications of Prior Home Ownership

       The law defines a “first-time homebuyer” as any individual (and spouse, if
married) who had no ownership interest in a principal residence during the three-year
period prior to the purchase of the home to which the Credit applies. TIGTA developed
computer programs to identify taxpayers who may not have qualified as first-time
homebuyers but claimed First-Time Homebuyer Credits on their 2008 tax returns. As of
July 25, 2009, using these computer programs, we identified almost 74,000 First-Time
Homebuyer Credit claims attached to an original Form 1040, U.S. Individual Income Tax




                                             5

Return, totaling more than $500 million, that were claimed by taxpayers who had
indications of prior home ownership within the preceding three years.16

        The almost 74,000 taxpayers had entered information on their individual income
tax returns for one of the prior three years indicating they may have owned a home.
These entries included deductions for home mortgage interest, real estate taxes,
deductible points and qualified mortgage insurance premiums. While these entries
indicate home ownership, the homes involved may or may not have been the taxpayers’
principal residences, so the deductions do not automatically disqualify the taxpayers from
receiving the First-Time Homebuyer Credit. However, we believe they warrant scrutiny
by the IRS.

         The IRS reported that as of May 17, 2009, it had initiated the use of computerized
filters to identify such taxpayers for examination. It plans to work the cases identified by
these filters before a refund is paid. In such cases, the portion of the taxpayer’s refund
associated with the First-Time Homebuyer Credit is frozen until the IRS verifies that the
taxpayer qualifies for the Credit. The IRS reported that as of May 24, 2009, 10,000 pre-
refund cases totaling $75 million were stopped. In addition, during the period that it was
developing its computerized filters, the IRS identified 10,000 questionable cases for
examination to be worked on a post-refund basis.

       We identified more than 70,000 questionable claims for First-Time Homebuyer
Credits, totaling almost $480 million, received by the IRS prior to the initiation of its
computerized pre-refund examination filters. We reviewed the tax accounts of a random
sample of 50 of these taxpayers. None of the accounts had received scrutiny from either
the IRS’s Questionable Refund Program or the Examination function relative to their
claims for the First-Time Homebuyer Credit.

        At the time we issued our interim report, the IRS had not decided whether or not
the claims for the more than 70,000 Credits will be subject to post-refund examinations.
We found that more than 12,000 of the approximately 70,000 Credits were claimed by
taxpayers who had claimed the Residential Energy Credit on one of their prior three tax
returns. 17 This increases the likelihood that the taxpayers owned a principal residence
and do not qualify for the First-Time Homebuyer Credit since the Residential Energy
Credit generally is only available for qualified expenditures made on a taxpayer’s
principal residence.

       We recommended that the IRS initiate actions to recover the First-Time
Homebuyer Credit, when appropriate, from taxpayers who had previously claimed the
Residential Energy Credit, the District of Columbia’s First-Time Homebuyer Credit,18 or

16
   Some of these questionable claims were filed by IRS employees. These cases were referred
to TIGTA’s Office of Investigations.
17
   Taxpayers may be eligible to claim a Residential Energy Credit for energy saving
improvements made to their homes located in the United States. Taxpayers must reduce the
basis of their homes by the amount of any credits allowed.
18
   In an effort to revitalize city neighborhoods, first-time homebuyers in the District of Columbia
(the District) have been allowed a credit against their Federal income tax equal to $5,000 since


                                                 6

the Mortgage Interest Credit19 on their individual income tax returns and develop a plan
to review the other questionable claims that were processed prior to the IRS filters being
implemented.20 The IRS agreed with this recommendation and stated that currently all
returns are screened for questionable First-Time Homebuyer Credit indicators and stored
in a database that will be used to select cases for examination in accordance with the
IRS’s overall compliance plan.

First-Time Homebuyers Younger Than 18 Years Old

        Through July 25, 2009, we identified more than 580 taxpayers younger than
18 years of age who claimed almost $4 million in First-Time Homebuyer Credits. The
youngest taxpayers receiving the Credit were four years old. Contract law generally
exempts children under the age of 18 from being bound by the terms of a contract.
Therefore, it is unlikely that these taxpayers would have entered into an arm’s-length
transaction for the purchase of a home.

        As of May 17, 2009, the IRS implemented examination filters to identify
potentially erroneous claims for the First-Time Homebuyer Credit. The age of the
taxpayer receiving the Credit was not one of the specific filters implemented by the IRS
to screen claims for the Credit on originally filed returns. The IRS believed that its filter
identifying taxpayers claiming the Credit who had Adjusted Gross Incomes below certain
levels would catch these questionable claims.

        One hundred sixty-five (28 percent) of the more than 580 taxpayers under age 18
that we identified claiming the Credit did not meet the IRS’s Adjusted Gross Income
screening criteria. In 64 of these cases, other IRS filters flagged the claim for further
scrutiny. However, 101 of the claims for the First-Time Homebuyer Credit made by
children under the age of 18 did not meet any of the IRS screening criteria.21 The total
amount of these Credits was almost $627,000.

        We recommended that the IRS add age to the filters for pre-refund examinations
of claims for First-Time Homebuyer Credits filed with original returns. The IRS agreed
with this recommendation and indicated that it would develop additional age filters to
capture residual returns not captured by existing filters.

1997. A first-time homebuyer in the District is any taxpayer that has had no interest in a principal
residence in the District within the last year. Non-District residents, including non-District resident
homeowners, are eligible to claim the credit for a home purchased in the city.
19
   The Mortgage Interest Credit is intended to help lower-income individuals afford home
ownership. If qualified, a taxpayer can claim the credit each year for part of the home mortgage
interest paid. Taxpayers may be eligible if they were issued a Mortgage Credit Certificate (MCC)
from their State or local government. Generally, an MCC is issued only in connection with a new
mortgage for the purchase of a taxpayer’s principal residence. The MCC will show the certificate
credit rate taxpayers should use to figure the credit. It also will show the certified indebtedness
amount. Only the interest on that amount qualifies for the credit.
20
   We are in the process of identifying taxpayers who claimed the District of Columbia’s First-Time
Homebuyer Credit or the Mortgage Interest Credit in the prior three years as well. Both of these
credits apply only to a principal residence.
21
   Sixty-seven of these cases were filed before the IRS screening criteria were put into place, but
would not have met the criteria had they been implemented at the time the returns were filed.


                                                  7

First-Time Homebuyers with ITINs

        The IRS issues Individual Taxpayer Identification Numbers (ITIN) to help
individuals comply with U.S. tax laws and to provide a means to efficiently process and
account for tax returns. Only individuals who have valid filing requirements or are filing
tax returns to claim refunds of over-withheld taxes are eligible to receive ITINs. ITINs
are issued regardless of an individual’s immigration status. An ITIN does not indicate
that an individual is authorized to live or work in the U.S. To be eligible to work in the
U.S., a taxpayer must have a Social Security Number that is valid for work. In calendar
year 2006, resident aliens accounted for 93 percent of the total number of ITINs issued.
Through July 25, 2009, we identified more than 3,200 taxpayers claiming First-Time
Homebuyer Credits totaling over $20.8 million on tax returns filed with ITINs.

        The Personal Responsibility and Work Opportunity Reconciliation Act of
     22
1996 prohibits aliens residing without authorization in the U.S. from receiving
most Federal public benefits.23 The Recovery Act specifically denies the First-
Time Homebuyer Credit to individuals who are nonresident aliens. However, the
Recovery Act is silent as to the eligibility for the Credit of resident aliens without
a Social Security Number that is valid for work. In a report issued earlier this
year, we noted that legislation is needed to clarify whether or not refundable tax
credits may be paid to filers without a valid Social Security Number, and if these
credits may not be paid, to provide the IRS with additional math error authority to
disallow associated claims for the credits.24

Amended Returns Claiming the First-Time Homebuyer Credit

        Taxpayers have several options to claim the First-Time Homebuyer Credit. One
option is to amend their 2008 tax returns. Taxpayers who buy homes after they have
already filed their 2008 tax returns but purchased them within the designated time frame
can file amended returns. The amended tax returns will allow them to claim the Credit
on their 2008 returns without waiting until 2010 to claim them on their 2009 returns.

        We believe that amended returns are also vulnerable to erroneous claims for the
First-Time Homebuyer Credit. During our audit of the First-Time Homebuyer Credit, we
recommended that the IRS implement controls to ensure that taxpayers claiming the
Credit on amended tax returns have not owned a principal residence within the prior three
years. We suggested that the IRS perform research of historical taxpayer account data to

22
   P.L. 104-193 Section 401(c).
23
   The law defines a Federal public benefit as any grant, contract, loan, professional license, or
commercial license provided by an agency of the United States or by appropriated funds of the
United States; and any retirement, welfare, health, disability, public or assisted housing,
postsecondary education, food assistance, unemployment benefit, or any other similar benefit for
which payments or assistance are provided to an individual, household, or family eligibility unit by
an agency of the United States or by appropriated funds of the United States. The law provides
an exception for specified emergency services and programs.
24
   Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers and to
Verify or Limit Refundable Credit Claims (Reference Number 2009-40-057, dated
March 31, 2009)


                                                 8

ensure that taxpayers claiming the Credit do not have indications of prior home
ownership that would disqualify them from claiming the Credit.

        The IRS agreed with our recommendation and informed us that it was already in
the process of developing criteria to identify amended returns with claims for the First-
Time Homebuyer Credit for review by its Examination function. The IRS requested and
was provided specific cases and details of our criteria for identifying questionable claims
for the Credit. The criteria were incorporated into the Internal Revenue Manual on
June 16, 2009.25 Along with the criteria in the Internal Revenue Manual, the IRS
enhanced its automated tool used to process amended tax returns. The tool was enhanced
to automate research of IRS records for indications of prior home ownership over the past
three years and other predetermined criteria that, if present, make the claim questionable.

Claims for Less than the Full Allowable Amount of the Credit

        As of July 25, 2009, we identified approximately 48,500 taxpayers who appear to
have not claimed or received the full amount of the First-Time Homebuyer Credit to
which they may have been entitled. Many of these taxpayers claimed $7,500 rather than
$8,000 for homes purchased in calendar year 2009. In our opinion, it is highly unlikely
that these taxpayers purchased homes for exactly $75,000. The lesser amounts were
claimed most likely because either the taxpayers filed their returns before the Recovery
Act was passed or they did not realize that the new law increased the Credit amount to
$8,000 for homes purchased in calendar year 2009. As of July 18, 2009, only about
7,900 (16 percent) of these taxpayers have amended their returns to claim the
additional $500.

        At the time we issued our interim report, the IRS did not plan to contact these
taxpayers or to track whether these taxpayers file amended returns. The IRS believed
taxpayers are aware of the additional $500 made available as a result of the Recovery Act
and would amend their returns if warranted. In our opinion, this approach is not
consistent with the intent of the Recovery Act, which is to provide a specified amount to
eligible taxpayers in order to stimulate the economy.

        For 2007, the IRS developed Package 1040A-3, Information About Economic
Stimulus Payments for Social Security, Veterans, and Other Beneficiaries, to provide
certain taxpayers with information and examples on how to claim their economic
stimulus payments. A similar package informing taxpayers of how to amend their First-
Time Homebuyer Credit claims may be beneficial.

       We also recommended that the IRS monitor the accounts of taxpayers known to
have purchased homes in calendar year 2009 and who claimed First-Time Homebuyer
Credits of $7,500 to determine if the taxpayers amend their returns. If the taxpayers do
not amend their returns, we recommended that the IRS contact these taxpayers to inform

25
    The Internal Revenue Manual (IRM) is the primary, official source of the IRS’s instructions to
its staff relating to the administration and operation of the IRS. The IRM contains the directions to
which employees must adhere when carrying out their responsibilities in administering tax laws or
other agency obligations.


                                                 9

them that they may be entitled to an additional refund if the purchase price of their home
was greater than $75,000.

        The IRS agreed with our recommendation and intends to send notices to taxpayers
purchasing homes in calendar year 2009 and claiming a Credit of $7,500 but who have
not amended their returns. The notice will inform taxpayers that they may be entitled to
an additional refund. We also recommended that the IRS consider providing taxpayers
with specific information detailing how to amend their tax returns to claim the full
amount of the Credit to which they are entitled. The IRS agreed with this
recommendation. The IRS will revise instructions for Form 1040, Form 1040X,
Amended U.S. Individual Income Tax Return, and Publication 17, Your Federal Income
Tax For Individuals, to include information to assist taxpayers in amending their returns
if they did not claim the full amount of the Credit to which they were entitled.

Coding Tax Accounts to Distinguish Between Credits

        We also determined that most of the approximately 48,500 taxpayers described
above, who appeared to have not claimed or received the full amount of the Credit, did
not have their IRS accounts properly coded to indicate that their homes were acquired in
calendar year 2009. Proper coding is significant because it is the indicator that the IRS
will use to distinguish between taxpayers who must repay the First-Time Homebuyer
Credit over 15 years (in accordance with HERA) and taxpayers who will not be required
to do so unless they sell their homes within 36 months (in accordance with the Recovery
Act). Unless the IRS properly codes the accounts, these taxpayers may eventually be
subject to IRS collection procedures.

       We reported this issue as part of our audit of the IRS 2009 Filing Season and
recommended that the IRS take steps to accurately code these taxpayers’ accounts to
properly indicate whether the taxpayers are required to repay their Credits.

Conclusion

        The First-Time Homebuyer Credit continues to play a significant role for millions
of American taxpayers. Most recently, on October 8, 2009, the U.S. House of
Representatives voted 416 to 0 to pass H.R. 3590, the Service Members Home
Ownership Tax Act of 2009. This legislation would provide certain American service
members, Foreign Service personnel, and some members of the intelligence community
an additional 12 months past the current November 30, 2009, deadline in order to claim
the First-Time Homebuyer Credit.

         Based on the administration of the Credit to date, I am concerned about the IRS’s
ability to effectively administer the Credits claimed within the original deadline, let alone
within an extended deadline for certain taxpayers. Although the IRS developed Form
5405 for eligible taxpayers to calculate and claim the Credit and implemented some
controls to ensure the accuracy of claims for the Credit, several key controls were not
designed or implemented. We are pleased that the IRS agreed to improve its controls in
response to our findings. However, given the control shortcomings noted by TIGTA



                                             10 

auditors, we will continue to provide oversight of the IRS’s efforts to effectively
administer the Credit and any extensions or changes to it. We plan to issue our next
report assessing the administration of the Credit in spring 2010.

        Mr. Chairman and Members of the Committee, thank you for the opportunity to
provide TIGTA’s assessment of the IRS’s administration of the First-Time Homebuyer
Credit. In closing, I would like to emphasize that TIGTA will continue to closely
monitor the IRS’s administration of the Credit and will promptly alert the IRS of any
problems or emerging issues. I would be pleased to answer any questions you may have
at the appropriate time.




                                           11 

       Appendix I




12 

13 

14 

       Appendix II




15 

16 

